Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICARE PAYMENTS FOR
    POWER WHEELCHAIRS




                    Inspector General

                      April 2004
                    OEI-03-02-00600
               Office of Inspector General

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the dep artment.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
�    A B S T R A C T 





                                  In 2001, Medicare and its beneficiaries paid $513 million for all K0011
                                  power wheelchairs. Payments for this procedure code have risen
                                  dramatically, increasing 43 percent from the year 2000 to 2001 alone.
                                  In order to determine whether K0011 power wheelchairs provided in
                                  2001 met Medicare’s coverage and documentation requirements, we
                                  selected a simple random sample of 300 claims. We then contacted the
                                  suppliers, ordering physicians, and beneficiaries associated with these
                                  claims, and provided medical documentation to an independent
                                  contractor for a coverage review. Our review indicated most claims did
                                  not meet Medicare’s coverage criteria for K0011 power wheelchairs;
                                  however, some claims met criteria for a less expensive mobility device.
                                  We also identified a number of other problems with Medicare claims for
                                  K0011 power wheelchairs, including missing and incomplete supporting
                                  documentation, and equipment that is not used by Medicare
                                  beneficiaries. We recommend that the Centers for Medicare & Medicaid
                                  Services (CMS) improve compliance with Medicare’s coverage criteria
                                  for power wheelchairs. We suggest that CMS require durable medical
                                  equipment regional carriers to revise current coverage policies for power
                                  wheelchairs; conduct frequent reviews of K0011 claims; and educate
                                  ordering physicians and beneficiaries about power wheelchair coverage
                                  criteria.




    O E I - 03 - 02 - 0 0 6 0 0   ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   i
�    E X E C U T I V E                                           S U M M A R Y 



                                  OBJECTIVE
                                  To determine whether power wheelchair claims meet Medicare’s
                                  coverage and documentation requirements, and to examine
                                  beneficiaries’ use of equipment and selection of suppliers.


                                  BACKGROUND
                                  Title XVIII of the Social Security Act established coverage and benefits
                                  under Part B of the Medicare program. Medicare beneficiaries covered
                                  by Part B are eligible to receive durable medical equipment (DME), such
                                  as power wheelchairs, when the items are deemed medically necessary
                                  by a physician and needed for use in the home. To qualify for power
                                  wheelchairs, patients must be bed or chair confined, unable to operate a
                                  wheelchair manually, and capable of safely operating the controls of the
                                  power wheelchair.
                                  According to supplier manuals published by the durable medical
                                  equipment regional carriers (DMERCs), initial claims for power
                                  wheelchairs must include a Certificate of Medical Necessity (CMN) that
                                  has been signed and dated by a physician. The supplier must maintain
                                  a copy of this signed CMN in their records. Suppliers must also
                                  maintain documentation showing that items were delivered to
                                  beneficiaries.
                                  In calendar year (CY) 2001, Medicare and its beneficiaries paid a total
                                  of $513 million for procedure code K0011, a standard-weight power
                                  wheelchair with programmable control parameters. Medicare allows
                                  approximately $5,000 for each K0011 power wheelchair claim. Total
                                  allowances for the K0011 code have risen dramatically, increasing
                                  43 percent from the year 2000 to 2001 alone. Although many
                                  beneficiaries need power wheelchairs, DMERCs and the Office of
                                  Inspector General (OIG) have identified fraud cases involving power
                                  wheelchairs that were not supplied, not medically necessary, or both.
                                  For this inspection, we selected a simple random sample of 300 claims
                                  for procedure code K0011 from the Centers for Medicare & Medicaid
                                  Service’s (CMS’s) 2001 National Claims History File. We then collected
                                  CMNs and delivery documentation from suppliers, and medical records
                                  from ordering physicians. Using Medicare coverage criteria, an
                                  independent medical review contractor conducted a coverage review of
                                  medical records received from physicians or suppliers. We did not assess
                                  the appropriateness of the Medicare coverage criteria themselves. We

    O E I - 03 - 02 - 0 0 6 0 0   ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   ii
E    X      E      C       U      T   I     V      E           S      U      M      M      A      R      Y


                                          also spoke with 166 of the 300 beneficiaries on whose behalf Medicare
                                          paid sample claims.


                                          FINDINGS
                                          Most reviewed claims did not meet Medicare’s coverage criteria for
                                          a K0011 power wheelchair; however, some claims may have met
                                          coverage criteria for a less expensive mobility device. Almost one-
                                          third of reviewed claims did not meet Medicare’s coverage criteria for
                                          any type of wheelchair. An additional 45 percent of reviewed claims did
                                          not meet Medicare’s coverage criteria for the K0011 power wheelchair
                                          but may have met criteria for another type of wheelchair or scooter (also
                                          known as a power-operated vehicle). Physicians, however, may not be
                                          familiar with Medicare’s coverage criteria when ordering mobility
                                          devices for their patients. The only document that physicians are
                                          required to review and complete when ordering a wheelchair is the
                                          CMN. Coverage guidelines are not listed on the CMN for power
                                          wheelchairs, and medical necessity questions on CMNs are not totally
                                          consistent with coverage policy. In CY 2001, Medicare and its
                                          beneficiaries paid an estimated $178 million for claims that did not
                                          meet Medicare’s coverage criteria for K0011 power wheelchairs. Only
                                          13 percent of reviewed claims actually met the coverage criteria for
                                          K0011 power wheelchairs. Due to insufficient documentation, the
                                          reviewer could not determine whether another 11 percent of reviewed
                                          claims met the coverage criteria for the K0011 power wheelchair.
                                          For over half of claims, CMNs and/or delivery documentation were
                                          missing, incomplete, or dated after the date of service. For 5 percent
                                          of K0011 power wheelchair claims, suppliers did not provide a CMN
                                          and/or proof of delivery. We estimate that Medicare and its
                                          beneficiaries paid an additional $19 million in CY 2001 for K0011
                                          claims that could not be substantiated by either a CMN or delivery
                                          documentation. Even when suppliers did submit CMNs or proof of
                                          delivery, the documentation was often incomplete or dated after the
                                          date of service.
                                          Most responding beneficiaries reported using their power
                                          wheelchairs at home; other beneficiaries either do not use their
                                          power wheelchairs or use them for outside activities only. Sixty-
                                          eight percent of beneficiaries who responded to our survey (113 of 166)
                                          currently use their power wheelchairs inside their homes. Four percent
                                          of respondents said that they have never used their power wheelchairs.


    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   iii
E    X      E      C       U      T   I     V      E           S      U      M      M      A      R      Y


                                          An additional 12 percent of respondents said that they do not currently
                                          use their power wheelchairs but have used them in the past. Another
                                          12 percent of respondents reported that they currently use their power
                                          wheelchairs outside the home only.
                                          Many beneficiaries who completed our survey responded to
                                          suppliers’ direct marketing practices. Almost one-quarter of
                                          beneficiaries who responded to our survey learned about their power
                                          wheelchair suppliers from a television commercial. An additional
                                          9 percent of respondents chose their suppliers after receiving something
                                          in the mail. Another 4 percent of respondents obtained their power
                                          wheelchairs from suppliers who visited their homes.


                                          RECOMMENDATION
                                          A power wheelchair can greatly improve the quality of life for an
                                          individual who otherwise suffers from limited mobility. However, our
                                          coverage review indicates that Medicare and its beneficiaries spent an
                                          estimated $178 million in 2001 for K0011 power wheelchairs that did
                                          not meet Medicare’s coverage criteria. These inappropriate payments
                                          waste taxpayer dollars that could otherwise fund appropriate
                                          equipment for needy Medicare beneficiaries.
                                          CMS has recognized the dramatic growth in payment for and utilization
                                          of power wheelchairs and is currently taking steps to address these
                                          issues as part of its 10-point plan of action to curb power wheelchair
                                          fraud, waste, and abuse. In fact, CMS has already begun implementing
                                          some of the options listed in the following recommendation. We believe
                                          that continued attention to Medicare payments for K0011 power
                                          wheelchairs is warranted.
                                          We recommend that CMS improve compliance with Medicare’s
                                          coverage criteria for K0011 power wheelchairs. CMS should consider
                                          the following options in order to improve compliance:
                                          Require DMERCs to revise the coverage policy for K0011 power wheelchairs
                                          to include specific information about the medical conditions for which Medicare
                                          will cover this item. Our findings show that many beneficiaries did not
                                          meet coverage criteria for the K0011 power wheelchair but may have
                                          qualified for a lower-priced power wheelchair, a scooter, or a manual
                                          wheelchair. Given that patients frequently received K0011 power
                                          wheelchairs when their conditions warranted a lower level of
                                          equipment, CMS should evaluate the medical conditions and functional
                                          abilities that are associated with different types of mobility aids and
    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S         iv
E    X      E      C       U      T   I     V      E           S      U      M      M      A      R      Y



                                          describe these conditions/abilities in the coverage policies. This will
                                          ensure that beneficiaries have access to the equipment that is most
                                          appropriate for their conditions. DMERCs should also consider
                                          removing guidelines regarding the specialties of physicians who order
                                          scooters. In addition, DMERCs should require that physicians treat the
                                          patients for whom they order equipment.
                                          Require DMERCs to conduct frequent reviews of the K0011 procedure code to
                                          ensure appropriate payments. When performing reviews of K0011 claims,
                                          DMERCs should ensure that suppliers have complete and thorough
                                          documentation. DMERCs should also request medical records from
                                          ordering physicians in addition to supporting documentation from
                                          suppliers. DMERCs should also consider routinely contacting
                                          beneficiaries during the course of reviews to ensure that the equipment
                                          provided by suppliers is appropriate for and useful to beneficiaries.
                                          Educate ordering providers about Medicare’s coverage criteria for different
                                          types of assistive devices, including power wheelchairs, manual wheelchairs,
                                          and scooters. Ordering providers play a key role in determining the
                                          need for and utilization of equipment billed to Medicare. According to
                                          the Medicare Prescription Drug, Improvement, and Modernization Act
                                          of 2003, payment may not be made for power wheelchairs unless a
                                          physician, physician’s assistant, nurse practitioner, or clinical nurse
                                          specialist has conducted a face-to-face examination of the patient and
                                          written a prescription for the item. CMS relies on the clinical judgment
                                          of these health care professionals to ensure that Medicare only pays for
                                          items that are most appropriate for beneficiaries. However, ordering
                                          providers may not be aware of Medicare’s coverage requirements for
                                          mobility devices. A lack of provider education about Medicare’s
                                          coverage criteria for wheelchairs could adversely affect physicians’
                                          ability to make informed decisions about the types of mobility devices
                                          that are best for their patients, which could ultimately lead to
                                          inappropriate Medicare payments.
                                          Educate Medicare beneficiaries about coverage criteria for wheelchairs and
                                          scooters. Beneficiaries also play a key role in ensuring that Medicare
                                          does not pay for medically unnecessary or unused items. Beneficiaries
                                          who are knowledgeable about Medicare’s coverage guidelines can make
                                          more informed choices about the assistive devices that would meet both
                                          their own needs and Medicare’s coverage requirements.




    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S           v
E    X      E      C       U      T   I     V      E           S      U      M      M      A      R      Y




                                          AGENCY COMMENTS
                                          CMS concurred with our recommendation and agreed with our
                                          suggestions regarding coverage policy revisions and provider and
                                          beneficiary education. They also agreed that more frequent reviews of
                                          the K0011 code will help ensure appropriate payments; however, they
                                          do not believe that routinely contacting beneficiaries would yield
                                          meaningful results. CMS confirmed that they have already begun
                                          implementing many of our report recommendations through their power
                                          wheelchairs workgroup, which was established to develop a plan of
                                          action to ensure that payments are only made for power wheelchairs
                                          that are reasonable and necessary. Specific actions by CMS include:
                                          requiring DMERCs to develop a complete picture of a patient’s medical
                                          condition before making medical review coverage determinations;
                                          developing a regulation to remove the current requirement that scooters
                                          be prescribed only by certain specialists; and developing a regulation
                                          that requires a face-to-face examination by the treating physician prior
                                          to ordering a power wheelchair. CMS is also poised to release an
                                          educational campaign designed to provide both physicians and
                                          beneficiaries with needed information regarding Medicare and DMERC
                                          coverage policy. The full text of CMS’s comments is presented in
                                          Appendix B.




    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   vi
�   T A B L E         O F             C O N T E N T S 




           A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



           E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii



           I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




           F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                       K0011 claims that did not meet Medicare coverage guidelines ........ 9


                       Missing, incomplete, or post-dated documentation ......................... 12


                       Beneficiaries’ reported use of power wheelchairs ............................ 13


                       Beneficiaries responded to direct marketing practices.................... 14




           R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16




           A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17




           A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                       A: Estimates and Confidence Intervals .......................................... 19


                       B: CMS’s Comments........................................................................ 20




           A C K N O W L E D G E M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

�    I N T R O D U C T I O N 



                                  OBJECTIVE
                                  To determine whether power wheelchair claims meet Medicare’s
                                  coverage and documentation requirements, and to examine
                                  beneficiaries’ use of equipment and selection of suppliers.


                                  BACKGROUND
                                  Title XVIII of the Social Security Act established coverage and benefits
                                  under Part B of the Medicare program. Medicare beneficiaries covered
                                  by Part B are eligible to receive durable medical equipment (DME)
                                  deemed medically necessary by a physician. Medicare Part B classifies
                                  certain items of DME, such as wheelchairs, as capped rental items.
                                  Payments for capped rental items are made on a monthly basis not to
                                  exceed 15 continuous months; however, power wheelchairs may be
                                  purchased outright. A DME supplier must give beneficiaries that
                                  qualify for a power wheelchair the option to purchase the item when it
                                  is first provided. If the beneficiary chooses to purchase the power
                                  wheelchair at that time, the supplier receives a lump-sum payment.
                                  Medicare beneficiaries are responsible for 20 percent of this lump-sum
                                  payment in the form of coinsurance.
                                  To obtain reimbursement for medical equipment such as power
                                  wheelchairs, suppliers submit claims to one of four durable medical
                                  equipment regional carriers (DMERCs). The Centers for Medicare &
                                  Medicaid Services (CMS) contracts with these DMERCs to process and
                                  pay medical equipment claims.
                                  Medicare Coverage Criteria for Wheelchairs and Scooters
                                  Medicare covers many different types of wheelchairs, from basic manual
                                  wheelchairs and scooters (also known as power-operated vehicles) to
                                  high-end power wheelchairs. Section 1862(1)(A) of the Social Security
                                  Act states that all DME items provided under Medicare Part B,
                                  including wheelchairs and scooters, must be “reasonable and necessary
                                  for the diagnosis or treatment of illness or injury or to improve the
                                  functioning of a malformed body member.” In addition, Section 1861(n)
                                  of the Social Security Act stipulates that patients must need the
                                  equipment for use in their homes. Payment is approved for the least
                                  costly medically acceptable item. Options that are beneficial primarily
                                  in allowing beneficiaries to perform leisure or recreational activities are
                                  not covered by Medicare.



    O E I - 03 - 02 - 0 0 6 0 0   ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S     1
I   N      T      R      O        D   U       C     T     I    O      N


                                          Coverage Criteria for Manual Wheelchairs. A manual wheelchair is covered
                                          if the patient’s condition is such that without the use of a wheelchair,
                                          the patient would otherwise be bed or chair confined. Additional
                                          criteria may apply for non-standard manual wheelchairs such as
                                          lightweight, ultra-lightweight, and heavy-duty manual wheelchairs.
                                          Coverage Criteria for Scooters. Unlike other mobility devices covered by
                                          Medicare, a scooter must be prescribed by a specialist. A scooter is
                                          usually covered only if it is ordered by a physician in one of the
                                          following specialties: Physical Medicine, Orthopedic Surgery, Neurology,
                                          or Rheumatology. For coverage of scooters, all of the following
                                          additional criteria must be met:
                                          o	      The patient’s condition is such that, without the use of a
                                                  wheelchair, the patient would not be able to move around in their
                                                  residence.
                                          o       The patient is unable to operate a manual wheelchair.

                                          o	      The patient is capable of safely operating the controls for the
                                                  scooter.
                                          o	      The patient can transfer safely in and out of the scooter and has
                                                  adequate trunk stability to be able to safely ride in the scooter.
                                          Coverage Criteria for Power Wheelchairs. A power wheelchair is covered
                                          when all of the following criteria are met:
                                          o	      The patient’s condition is such that, without the use of a
                                                  wheelchair, the patient would otherwise be bed or chair confined.
                                          o	      The patient’s condition is such that a wheelchair is medically
                                                  necessary, and the beneficiary is unable to operate a wheelchair
                                                  manually.
                                          o	      The patient is capable of safely operating the controls for the
                                                  power wheelchair.
                                          According to the DMERC supplier manuals, “A patient who requires a
                                          power wheelchair usually is totally non-ambulatory and has severe
                                          weakness of the upper extremities due to a neurologic or muscular
                                          disease/condition.” Unlike scooters, a physician does not need to have a
                                          particular specialty in order to prescribe a power wheelchair.
                                          Documentation Required by DMERCs for Power Wheelchair Claims
                                          According to the DMERC supplier manuals, initial claims for power
                                          wheelchairs must include a Certificate of Medical Necessity (CMN).


    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S          2
I   N      T      R      O        D   U       C     T     I    O      N


                                          These initial CMNs are usually submitted to DMERCs electronically.
                                          The CMN for power wheelchairs, CMS Form 843, is divided into
                                          different sections. Suppliers complete sections relating to their
                                          company, the beneficiary, and the ordering physician. They also provide
                                          information about the type of equipment ordered, their charge for the
                                          equipment, and the Medicare allowance. The ordering physician or an
                                          employee of the physician completes sections regarding the patient’s
                                          medical condition. In order for a power wheelchair to be covered by
                                          Medicare, the physician must respond, “Yes” to the following questions
                                          on the CMN:
                                          o	      Does the patient require and use a wheelchair to move around in
                                                  their residence?
                                          o	      Does the patient have severe weakness of the upper extremities
                                                  due to a neurologic, muscular, or cardiopulmonary
                                                  disease/condition?
                                          o       Is the patient unable to operate any type of manual wheelchair?

                                          The ordering physician must then sign and date the CMN. The supplier
                                          must maintain a hard copy of this signed CMN in its records and
                                          present it to the DMERC upon request. Information submitted to the
                                          DMERC by the supplier must be substantiated by documentation in the
                                          patient’s medical records.
                                          According to the Medicare Program Integrity Manual and the supplier
                                          manuals, suppliers must also maintain documentation showing that
                                          items were delivered to beneficiaries. Delivery documents must include
                                          the date of delivery, the patient’s name and signature, the quantity of
                                          the item(s) delivered, a detailed description of the item(s) delivered, and
                                          the brand name and serial number of the item(s). Proof of delivery
                                          must be available to the DMERC upon request. If a supplier cannot
                                          furnish this documentation, the DMERC can deny the claim and
                                          request an overpayment.
                                          Concerns About Medicare Payments for Power Wheelchairs
                                          In calendar year (CY) 2001, Medicare and its beneficiaries paid
                                          $538 million for all power wheelchairs. Payments for procedure code
                                          K0011, a standard-weight power wheelchair with programmable control
                                          parameters, accounted for 95 percent of this total ($513 million). In
                                          CY 2001, Medicare allowed approximately $5,000 for each K0011 power
                                          wheelchair. Payments for the K0011 code have been rising
                                          dramatically, increasing 43 percent from the year 2000 to 2001 alone.


    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S       3
I   N      T      R      O        D   U      C      T     I    O      N


                                          In September 2003, CMS and the Office of Inspector General (OIG)
                                          issued a joint press release that cited a number of fraud cases involving
                                          power wheelchairs that were not supplied, not medically necessary, or
                                          both. OIG has also investigated cases where suppliers billed Medicare
                                          for a K0011 power wheelchair but provided beneficiaries with scooters,
                                          which are reimbursed at less than half the amount of K0011 power
                                          wheelchairs. In order to address significant increases in allowances for
                                          power wheelchairs and indications of improper billing activity, CMS has
                                          launched a campaign to curb abuse of the Medicare program by
                                          unscrupulous suppliers of mobility products. Initiatives in this
                                          campaign include: revising coverage policy for power wheelchairs and
                                          scooters to ensure that national policy accurately defines the conditions
                                          under which Medicare will cover mobility products; adopting a
                                          consistent approach to medical review; clarifying physicians’
                                          responsibilities as prescribers of mobility devices; and educating
                                          beneficiaries about Medicare coverage guidelines.


                                          METHODOLOGY
                                          Sample Design
                                          We focused our review on procedure code K0011, which is a standard-

                                          weight power wheelchair with programmable control parameters for 

                                          speed adjustment, tremor dampening, acceleration control, and braking. 

                                          We extracted all paid claims for procedure code K0011 from CMS’s 2001 

                                          National Claims History File. According to this claims data, 99 percent 

                                          of all expenditures for K0011s were for first-month purchases. 

                                          Therefore, our sampling frame of 100,124 claims included only K0011 

                                          power wheelchairs that were purchased by the beneficiary in the first 

                                          month. Claims for rentals were not included. We selected a simple 

                                          random sample of 386 claims from the sampling frame. Using 

                                          information from CMS’s beneficiary enrollment database, we then 

                                          removed claims associated with deceased beneficiaries. We also 

                                          removed claims with suppliers or ordering physicians that were under 

                                          investigation by OIG’s Office of Investigations. We removed a total of 

                                          86 claims, resulting in a final sample of 300 power wheelchair claims. 

                                          These 300 sample claims represent an estimated $394 million in 

                                          allowances for K0011 power wheelchairs.

                                          Data Collection

                                          Supplier Contacts. We identified suppliers who submitted the sample 

                                          claims and contacted these suppliers using address information from 


    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S     4
I   N      T      R      O        D   U      C      T     I    O      N


                                          CMS’s National Supplier Clearinghouse. We requested that suppliers
                                          provide us with CMNs and additional documentation in support of
                                          sample claims. We also requested that suppliers provide delivery
                                          records for these sample items.
                                          We made up to three attempts to contact each supplier by overnight
                                          mail with a signature request. We received responses for 272 of the 300
                                          claims in our sample. We could not locate suppliers for 17 claims due to
                                          incorrect address information; therefore, we did not include these claims
                                          in our analysis of supplier documentation. We did not receive responses
                                          for 11 claims. For the purposes of our study, we concluded that the
                                          suppliers for these claims did not have supporting documentation, and
                                          included the claims in our analysis of missing CMNs and delivery
                                          documentation. Therefore, a total of 283 claims were used in our
                                          analysis of CMNs and delivery documentation.
                                          Physician Contacts. Using address information collected from suppliers,
                                          we contacted the ordering physicians for sample claims. We requested
                                          copies of Medicare beneficiaries’ medical records in support of sample
                                          claims for power wheelchairs. Specifically, we requested all
                                          documentation (including office visit notes, referrals for physical or
                                          occupational therapists, and hospital admission histories and discharge
                                          summaries) from the 6-month period prior to and including the date on
                                          the sample claim.
                                          Suppliers were able to provide physician address information for 271
                                          claims. We made up to three written attempts to contact these
                                          physicians. We did not receive responses for 15 claims and were unable
                                          to contact ordering physicians for an additional 9 claims due to incorrect
                                          addresses. We did receive responses for 247 claims; however,
                                          physicians did not submit the requested information for 35 of these
                                          claims. For 7 of the 35 claims, the physicians indicated that they never
                                          ordered the power wheelchairs. These seven claims have been referred
                                          to OIG’s Office of Investigations for further development.
                                          Beneficiary Contacts. Using numbers obtained from both suppliers and
                                          the Internet, we telephoned the beneficiaries for whom sample
                                          wheelchairs were ordered. We asked beneficiaries how they learned
                                          about suppliers, whether suppliers provided them with equipment, and
                                          whether they have used the equipment. We also asked each beneficiary
                                          specific questions about the equipment provided, such as the brand
                                          name, model number, and serial number of the item.



    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S    5
I   N      T      R      O        D   U      C      T     I    O      N


                                          We completed telephone interviews with 166 of the 300 beneficiaries in
                                          our sample. Responses from these 166 beneficiaries formed the basis for
                                          our analysis. We did not project our results to the population. Of the
                                          134 non-respondents, 69 were beneficiaries for whom we could not find
                                          telephone numbers, 41 were beneficiaries who could not be reached by
                                          telephone, and 24 were beneficiaries who refused to participate.
                                          Coverage Review. We ultimately forwarded a total of 230 medical
                                          records received from physicians and/or suppliers to an independent
                                          medical review contractor. Claims for these 230 medical records
                                          represent an estimated $303 million in allowances for K0011 power
                                          wheelchairs. Table 1 below shows the results of our effort to collect
                                          medical information that could be used in a coverage review.


                                          Table 1. Data Collection Results: Records for Coverage Review


                                                                                                                         Number of Claims

                                              Claims That Were Sent for Coverage Review                                               230


                                              Physician Provided Useable Medical Records                                              212


                                              Physician Responded But Did Not Provide Useable Medical
                                                                                                                                       11
                                              Records; Supplier Provided Useable Records

                                              Physician Could Not Be Contacted But Supplier Provided Useable
                                                                                                                                        2
                                              Medical Records

                                              Physician Did Not Respond But Supplier Provided Useable Medical
                                                                                                                                        5
                                              Records

                                              Claims That Were Not Sent for Coverage Review                                            70

                                              Supplier Did Not Respond, Could Not Be Contacted, Or Did Not
                                                                                                                                       29
                                              Provide Address Information for Physician

                                              Physician Responded But Did Not Provide Useable Medical
                                                                                                                                       24
                                              Records; Supplier Did Not Provide Useable Records

                                              Physician Could Not Be Contacted And Supplier Did Not Provide
                                                                                                                                        7
                                              Useable Medical Records

                                              Physician Did Not Respond And Supplier Did Not Provide Useable
                                                                                                                                       10
                                              Medical Records

                                              Total Claims in Sample                                                                 300

                                          Source: OEI Analysis of Supplier and Physician Data Collection Results, 2003




    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S                               6
I   N      T      R      O        D   U      C      T     I    O      N


                                          The medical review contractor conducted a coverage review of the
                                          records using a data collection instrument jointly developed by our office
                                          and the contractor. The coverage review instrument included questions
                                          regarding the patient’s diagnosis, physical condition, ability to
                                          ambulate, and ability to operate a power wheelchair. The reviewer
                                          determined whether the K0011 power wheelchair met the Medicare
                                          coverage criteria outlined in the DMERC supplier manuals. For cases
                                          where the physician reviewer determined that the K0011 power
                                          wheelchair did not meet the Medicare coverage criteria, the reviewer
                                          indicated whether another, less expensive, mobility device would have
                                          been appropriate for the patient, given both the coverage criteria and
                                          the information in the medical records. The reviewer had the option of
                                          “downcoding” to one of the following mobility devices: a K0010 power
                                          wheelchair, which is a standard-weight power wheelchair without
                                          programmable controls; a scooter; or a manual wheelchair. It is
                                          important to note that we did not specifically request records to support
                                          any item other than the K0011 power wheelchair. Also, we did not
                                          assess the appropriateness of the Medicare coverage criteria.
                                          Data Analysis
                                          We reviewed CMNs for sample claims to determine whether the
                                          information was complete. We then estimated the proportion of claims
                                          for power wheelchairs with incomplete CMNs. We also determined
                                          whether suppliers’ delivery records for sample wheelchairs included the
                                          required information. We analyzed beneficiary survey responses to
                                          determine whether suppliers actually provided equipment to the
                                          beneficiary and whether beneficiaries used the equipment. We also
                                          identified the ways in which beneficiaries learned about their suppliers.

                                          We aggregated data received from the medical review contractor and
                                          estimated the proportion of sample claims that did not meet Medicare’s
                                          coverage criteria for a K0011 power wheelchair. To compute
                                          inappropriate payments, we totaled the allowances for all claims that
                                          did not meet Medicare’s coverage criteria for procedure code K0011.
                                          However, we used adjusted allowances for cases where beneficiaries did
                                          not meet the coverage criteria for a K0011 power wheelchair but would
                                          have qualified for a K0010 power wheelchair, a scooter, or a manual
                                          wheelchair. We then computed the difference between the original and
                                          adjusted allowances for these claims. Adjusted allowances were derived
                                          from the 2001 DME fee schedule ceiling amounts for procedure codes
                                          K0010, E1230 (scooter), and K0005 (ultra-lightweight manual
                                          wheelchair). We used procedure code K0005 for the adjusted allowance

    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   7
I   N      T      R      O        D   U      C      T     I    O      N


                                          because it has the highest reimbursement amount of any manual
                                          wheelchair and is, therefore, the most conservative figure.




                                          This study was conducted in accordance with the Quality Standards for
                                          Inspections issued by the President=s Council on Integrity and
                                          Efficiency.




    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   8
 �     F I N D I N G S 


   Most reviewed claims did not meet Medicare’s              Only a small percentage of
  coverage criteria for a K0011 power wheelchair;            reviewed claims (13 percent) met
   however, some claims may have met coverage                Medicare’s coverage criteria for a
                                                             K0011 power wheelchair, as
     criteria for a less expensive mobility device
                                                             illustrated in Chart 1 below.
                      Although 31 percent of claims did not meet coverage criteria for any
                      mobility device, another 45 percent of claims may have met criteria for
                      another, less expensive item.


           CHART 1

                                                                      Claim Met K0011
Results of Coverage 
                                                     Criteria
  Review for K0011 
                                                        13%
Power Wheelchairs, 
                                                                                      Claim Did Not Meet
            n = 230.
                                                                                       Criteria for Any
                                                   Could Not                                               Mobility Device
                                               Determine if Claim                                                 31%
                                               Met K0011 Criteria
                                                     11%




                                                                               Claim Met Criteria
                                                                                  for Another
                                                                                Mobility Device
                                                                                      45%

                                    Source: OEI Analysis of Coverage Review Results, 2003


                                    Almost one-third of reviewed claims did not meet Medicare’s coverage
                                    criteria for any type of wheelchair or scooter.
                                    A medical review contractor determined that 31 percent of reviewed
                                    claims did not meet Medicare’s coverage criteria for either a K0011
                                    power wheelchair or any other type of wheelchair or scooter. In
                                    CY 2001, Medicare and its beneficiaries paid an estimated $96 million
                                    for claims that did not meet Medicare’s coverage criteria for any type of
                                    wheelchair or scooter. The estimate does not account for any
                                    accessories that may have been billed in conjunction with the power
                                    wheelchairs (e.g., arm rests, leg rests, and cushions). If a power
                                    wheelchair does not meet Medicare’s coverage criteria, then any
                                    associated accessories would not be covered.


      O E I - 03 - 02 - 0 0 6 0 0   ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S                        9
F    I    N       D      I        N   G    S


                                          Beneficiaries in all of these cases were able to ambulate, although some
                                          did so with the assistance of a cane or walker. According to the
                                          coverage criteria for any type of wheelchair, the patient’s condition must
                                          be “such that without the use of a wheelchair the patient would
                                          otherwise be bed or chair confined.” Therefore, if beneficiaries are
                                          ambulatory (i.e., not bed or chair confined), they do not qualify for a
                                          wheelchair or scooter under Medicare’s coverage guidelines. Physicians,
                                          however, may not be familiar with this coverage criterion when ordering
                                          mobility devices for their patients. Medicare’s coverage criteria for
                                          power wheelchairs are outlined only in DMERC supplier manuals,
                                          which are provided to the suppliers who bill for medical equipment but
                                          not the physicians who order it. The only document that physicians are
                                          required to review and complete when ordering a wheelchair is the
                                          CMN. Coverage guidelines are not listed on the CMN for power
                                          wheelchairs, nor do any of the medical necessity questions on the CMN
                                          require physicians to address whether patients are non-ambulatory.
                                          An additional 45 percent of reviewed claims did not meet Medicare’s
                                          coverage criteria for the K0011 power wheelchair but may have met criteria
                                          for another type of wheelchair or scooter.
                                          According to the medical review contractor, 45 percent of reviewed
                                          claims did not meet Medicare’s coverage criteria for a K0011 power
                                          wheelchair but may have met criteria for a scooter, K0010 power
                                          wheelchair, or manual wheelchair. In CY 2001, Medicare and its
                                          beneficiaries spent an estimated $82 million in excessive payments for
                                          claims that could have been billed using a code for a less expensive
                                          mobility device. Physicians may not be aware of the differences in
                                          coverage criteria among the mobility devices available to Medicare
                                          beneficiaries. Discrepancies between medical necessity questions on the
                                          CMN and coverage criteria could also cause confusion about the medical
                                          conditions for which K0011 power wheelchairs would be most beneficial.
                                          For example, question 6 in section B of the CMN for power wheelchairs
                                          allows physicians to attribute an upper extremity weakness to a
                                          cardiopulmonary disease/condition, whereas the coverage guidelines
                                          refer only to a neurologic or muscular disease/condition.

                                          Twenty-three percent of reviewed claims did not meet the coverage
                                          criteria for a K0011 power wheelchair but would have met the coverage
                                          criteria for a scooter. The beneficiaries in these cases were non-
                                          ambulatory, unable to self-propel a manual wheelchair, and had
                                          sufficient trunk stability and transfer ability to safely operate a scooter.
                                          Their medical conditions did not warrant a higher-level power

    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S     10
F    I    N       D      I        N   G    S


                                          wheelchair. Some beneficiaries may have received K0011 power
                                          wheelchairs rather than scooters because their ordering physicians were
                                          not able to prescribe scooters. A scooter is usually covered only if it is
                                          ordered by a specialist in physical medicine, orthopedic surgery,
                                          neurology, or rheumatology; however, there are no such restrictions for
                                          a K0011 power wheelchair, which costs twice as much as a scooter.
                                          Guidelines regarding the specialties of physicians who order scooters
                                          may actually prevent beneficiaries from getting the equipment that best
                                          suits their needs, and could lead to excessive Medicare payments if
                                          K0011 power wheelchairs are provided in lieu of scooters.
                                          For 8 percent of reviewed claims, the beneficiary did not meet
                                          Medicare’s coverage criteria for a K0011 power wheelchair but would
                                          have qualified for a K0010 power wheelchair. In most of these cases,
                                          the beneficiaries were non-ambulatory with significant trunk instability
                                          and upper extremity weakness but did not have a medical condition
                                          that would require programmable controls. Medicare coverage
                                          requirements do not currently provide any guidance as to the medical
                                          conditions that might benefit from programmable controls.
                                          An additional 3 percent of reviewed claims would have met the coverage
                                          criteria for a manual wheelchair rather than a K0011 power wheelchair.
                                          For these cases, the medical records usually indicated that the
                                          beneficiaries were non-ambulatory but had sufficient upper extremity
                                          strength to operate some type of manual wheelchair.
                                          Eleven percent of reviewed claims did not meet the coverage guidelines
                                          for a K0011 power wheelchair but may have met criteria for another
                                          type of wheelchair or scooter. These claims did not meet coverage
                                          criteria for a K0011 power wheelchair because the beneficiary did not
                                          need programmable controls. However, due to scanty medical
                                          documentation, the reviewer was unable to determine what other
                                          mobility device may have been appropriate for the beneficiary.
                                          Only 13 percent of reviewed claims met the coverage criteria for a K0011
                                          power wheelchair.
                                          In CY 2001, Medicare paid an estimated $38 million for claims that met
                                          the coverage criteria for K0011 power wheelchairs. The beneficiaries in
                                          these cases were clearly non-ambulatory, had upper extremity
                                          weaknesses, and required programmable controls, usually due to
                                          contractures, tremors, or spasticity.




    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   11
 F    I    N       D      I        N   G    S


                                           Due to insufficient documentation, the reviewer could not determine
                                           whether another 11 percent of reviewed claims met the coverage criteria for
                                           the K0011 power wheelchair.
                                           Insufficient documentation prevented the medical reviewer from
                                           determining whether an additional 11 percent of reviewed claims met
                                           the coverage criteria for K0011 power wheelchairs. In CY 2001,
                                           Medicare and its beneficiaries paid an estimated $34 million for these
                                           claims. In half of these cases, the medical record did not provide a clear
                                           description of the beneficiaries’ ambulatory or functional status. In
                                           other cases, it was clear that the beneficiary was bed or chair confined,
                                           but there was not enough information to determine whether
                                           programmable controls were necessary.



              For over half of K0011 claims, CMNs and/or     CMNs and/or delivery
delivery documentation were missing, incomplete,             documentation for 52 percent of
                or dated after the date of service.	         K0011 power wheelchair claims
                                                             were missing, incomplete, or
                  dated after the date of service on the claim. Some claims had one or more
                  of these documentation problems. Typically, CMNs are submitted
                  electronically to the DMERCs; therefore, original copies of CMNs are not
                  reviewed unless DMERCs specifically request this information from the
                  supplier on a pre- or post-pay basis. Similarly, suppliers are not required
                  to submit proof of delivery with the initial claim for payment, and
                  DMERCs only collect delivery documentation as part of a pre- or post-pay
                  review.

                                           Five percent of power wheelchair claims did not have the required
                                           supporting documentation.
                                           For 5 percent of K0011 power wheelchair claims, suppliers did not provide
                                           a CMN and/or proof of delivery. According to DMERC requirements,
                                           suppliers must maintain copies of signed CMNs and furnish them upon
                                           request. Suppliers must also maintain documentation showing that items
                                           were delivered to beneficiaries. If suppliers cannot provide this
                                           documentation, DMERCs can deny the claims and request overpayments.
                                           We estimate that Medicare and its beneficiaries paid an additional
                                           $19 million in CY 2001 for K0011 claims that could not be substantiated
                                           by either a CMN or delivery documentation.




     O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   12
F    I    N       D      I        N   G    S


                                          Even when suppliers did submit CMNs or proof of delivery, the
                                          documentation was often incomplete or dated after the date of service.
                                          Although DMERCs require that all elements contained on CMNs be
                                          completed, original paper CMNs obtained from suppliers for 20 percent of
                                          claims had at least one item missing. The supplier’s National Supplier
                                          Clearinghouse number and the supplier’s charge for the wheelchair were
                                          the items most often missing from CMNs.

                                          In addition, CMNs for 13 percent of claims were dated after the service
                                          date. Almost one-quarter of these CMNs were dated more than a month
                                          after the date of service on the sample claim, with three CMNs dated
                                          almost a year after the date of service.
                                          Although most suppliers submitted proof that power wheelchairs were
                                          delivered, delivery documentation supporting 29 percent of claims was
                                          missing one or more of the required elements. Quantity, serial number,
                                          and brand name of items delivered were the elements most often missing
                                          from delivery documents. In addition, delivery documentation for
                                          5 percent of claims showed that the power wheelchair was delivered to the
                                          beneficiary after the date of service listed on the Medicare claim. In one
                                          case, the wheelchair was delivered 2 months after the supplier billed
                                          Medicare.


Most responding beneficiaries reported using their               Sixty-eight percent of
     power wheelchairs at home; other beneficiaries              beneficiaries who responded to
                                                                 our survey (113 of 166)
    either do not use their power wheelchairs or use
                                                                 currently use their power
                     them for outside activities only.
                                                                 wheelchairs inside their
                     homes. The wife of one beneficiary explained that the power wheelchair
                     “is a necessary part of [her husband’s] life. It’s given him back a sense
                     of mobility…It gave him back quality of life.” Another beneficiary
                     volunteered, “It’s a wonderful invention, without it I would be crawling
                     on the floor.”
                                          Although many beneficiaries offered positive comments about their
                                          wheelchairs and the sense of freedom they provide, 4 percent of
                                          respondents said that they have never used their power wheelchairs.
                                          One of these beneficiaries stated, “I don’t need it yet…When my doctor
                                          approved it he said for later use. I am walking with a walker.” Two
                                          other beneficiaries said that they never used their power wheelchairs
                                          because no one showed them how to use the equipment.



    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   13
F    I    N       D      I        N   G    S


                                          An additional 12 percent of respondents said that they do not currently
                                          use their power wheelchairs but have used them in the past. Some of
                                          these beneficiaries no longer use their wheelchairs because the
                                          equipment is too big and heavy. One beneficiary stated, “It's not the
                                          chair my doctor said I needed when they brought it out and I told them
                                          so…The wheelchair is too large and too fast…If I used it in my house I
                                          would tear up my furniture…I just don't like it.” Other beneficiaries do
                                          not currently use their power wheelchairs due to unresolved
                                          maintenance problems, such as dead batteries or flat tires. One
                                          beneficiary said, “I haven’t had my chair since July 2002. The chair was
                                          picked up to be adjusted. I have contacted [the supplier] many, many
                                          times asking about my chair…I just keep getting the run around.”
                                          Another beneficiary reported, “The tires are flat…This is the second
                                          time the tires have gone flat…The supplier has been saying for months
                                          that they would pick up their chair but they have not.”
                                          Another 12 percent of respondents reported that they currently use
                                          their power wheelchairs outside the home only. According to Section
                                          1861(n) of the Social Security Act, a wheelchair must be needed for use
                                          in the home. Almost half of these beneficiaries indicated that they do
                                          not use their wheelchairs inside because the equipment is too large and
                                          does not fit in their homes. One respondent noted, “My apartment isn’t
                                          big enough. I use it when I go out like for a baby shower or to see my
                                          grandkids play baseball.“ Another beneficiary said, “I wanted a smaller
                                          model.”


           Many beneficiaries who completed our                         Almost one-quarter of beneficiaries
                              survey responded to suppliers’            who responded to our survey learned
                                  direct marketing practices.           about their power wheelchair
                                                                        suppliers from a television
                                   commercial. As one beneficiary explained, “I saw the commercial. They
                                   said it is free and I thought ‘why not.’ They were thrilled, I gave them
                                   my doctor’s fax number. I had it in 2 days.” However, this same
                                   beneficiary commented that the wheelchair she received was “not what I
                                   thought they advertised for.” Another beneficiary said, “I saw it on TV.
                                   They were advertising. I called the company up. They sent me a video.
                                   They got in touch with my doctor and he came back and said it was
                                   approved.” The beneficiary also noted, “If I knew what it cost I would
                                   not have gotten it. I would have gotten something cheaper. I had no
                                   idea how much it cost until I got the Medicare bill.” An additional


    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   14
F    I    N       D      I        N   G    S


                                          9 percent of respondents chose their suppliers after receiving something
                                          in the mail. Four percent of respondents obtained their power
                                          wheelchairs from suppliers who visited their homes. One of these
                                          beneficiaries commented, “the door-to-door sales rep gave me $50 for
                                          signing up and offered me $50 for referrals.”




    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   15
E    X
0    R EE CC UO TM I MV EE N SD UA MT MI AO RN Y

                                  A power wheelchair can greatly improve the quality of life for an
                                  individual who otherwise suffers from limited mobility. However, our
                                  coverage review indicates that Medicare and its beneficiaries spent an
                                  estimated $178 million in 2001 for K0011 power wheelchairs that did
                                  not meet Medicare’s coverage criteria. These inappropriate payments
                                  waste taxpayer dollars that could otherwise fund appropriate
                                  equipment for needy Medicare beneficiaries.

                                  CMS has recognized the dramatic growth in payment for and utilization
                                  of power wheelchairs and is currently taking steps to address these
                                  issues as part of its 10-point plan of action to curb power wheelchair
                                  fraud, waste, and abuse. In fact, CMS has already begun implementing
                                  some of the options listed in the following recommendation. We believe
                                  that continued attention to Medicare payments for K0011 power
                                  wheelchairs is warranted.

                                  We recommend that CMS improve compliance with Medicare’s coverage
                                  criteria for K0011 power wheelchairs. CMS should consider the following
                                  options in order to improve compliance:
                                  Require DMERCs to revise the coverage policy for K0011 power wheelchairs
                                  to include specific information about the medical conditions for which Medicare
                                  will cover this item. Our findings show that many beneficiaries did not
                                  meet coverage criteria for the K0011 power wheelchair but may have
                                  qualified for a lower-priced power wheelchair, a scooter, or a manual
                                  wheelchair. Given that patients frequently received K0011 power
                                  wheelchairs when their conditions warranted a lower level of
                                  equipment, CMS should evaluate the medical conditions and functional
                                  abilities that are associated with different types of mobility aids and
                                  describe these conditions/abilities in the coverage policies. This will
                                  ensure that beneficiaries have access to the equipment that is most
                                  appropriate for their conditions. DMERCs should also consider
                                  removing guidelines regarding the specialties of physicians who order
                                  scooters. In addition, DMERCs should require that physicians treat the
                                  patients for whom they order equipment.

                                  Require DMERCs to conduct frequent reviews of the K0011 procedure code to
                                  ensure appropriate payments. When performing reviews of K0011 claims,
                                  DMERCs should ensure that suppliers have complete and thorough
                                  documentation. DMERCs should also request medical records from
                                  ordering physicians in addition to supporting documentation from
                                  suppliers. DMERCs should also consider routinely contacting



    O E I - 03 - 02 - 0 0 6 0 0   ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S        16
R    E      C       O      M      M   E    N      D      A     T      I    O      N


                                      beneficiaries during the course of reviews to ensure that the equipment
                                      provided by suppliers is appropriate for and useful to beneficiaries.
                                      Educate ordering providers about Medicare’s coverage criteria for different
                                      types of assistive devices, including power wheelchairs, manual wheelchairs,
                                      and scooters. Ordering providers play a key role in determining the
                                      need for and utilization of equipment billed to Medicare. According to
                                      the Medicare Prescription Drug, Improvement, and Modernization Act
                                      of 2003, payment may not be made for power wheelchairs unless a
                                      physician, physician’s assistant, nurse practitioner, or clinical nurse
                                      specialist has conducted a face-to-face examination of the patient and
                                      written a prescription for the item. CMS relies on the clinical judgment
                                      of these health care professionals to ensure that Medicare only pays for
                                      items that are most appropriate for beneficiaries. However, ordering
                                      providers may not be aware of Medicare’s coverage requirements for
                                      mobility devices. A lack of provider education about Medicare’s
                                      coverage criteria for wheelchairs could adversely affect physicians’
                                      ability to make informed decisions about the types of mobility devices
                                      that are best for their patients, which could ultimately lead to
                                      inappropriate Medicare payments.
                                      Educate Medicare beneficiaries about coverage criteria for wheelchairs and
                                      scooters. Beneficiaries also play a key role in ensuring that Medicare
                                      does not pay for medically unnecessary or unused items. Beneficiaries
                                      who are knowledgeable about Medicare’s coverage guidelines can make
                                      more informed choices about the assistive devices that would meet both
                                      their own needs and Medicare’s coverage requirements.
                                      Agency Comments
                                      CMS concurred with our recommendation and agreed with our
                                      suggestions regarding coverage policy revisions and provider and
                                      beneficiary education. They also agreed that more frequent reviews of
                                      the K0011 code will help ensure appropriate payments; however, they
                                      do not believe that routinely contacting beneficiaries would yield
                                      meaningful results. CMS confirmed that they have already begun
                                      implementing many of our report recommendations through their power
                                      wheelchairs workgroup, which was established to develop a plan of
                                      action to ensure that payments are only made for power wheelchairs
                                      that are reasonable and necessary. Specific actions by CMS include:
                                      requiring DMERCs to develop a complete picture of a patient’s medical
                                      condition before making medical review coverage determinations;
                                      developing a regulation to remove the current requirement that scooters


    O E I - 03 - 02 - 0 0 6 0 0       ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S           17
R    E      C       O      M      M   E    N      D      A     T      I    O      N


                                      be prescribed only by certain specialists; and developing a regulation
                                      that requires a face-to-face examination by the treating physician prior
                                      to ordering a power wheelchair. CMS is also poised to release an
                                      educational campaign designed to provide both physicians and
                                      beneficiaries with needed information regarding Medicare and DMERC
                                      coverage policy. The full text of CMS’s comments is presented in
                                      Appendix B.




    O E I - 03 - 02 - 0 0 6 0 0       ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   18
�    A P P E N D I X                                       ~           A

             Table 1. Estimates and Confidence Intervals


                                                                                                        Point Estimate   95 % Confidence Interval
             Claims Where No Other Item Would Have Been Appropriate                                        31.30%            25.31% - 37.30%

             Claims That Did Not Meet K0011 Coverage Criteria But May Have
                                                                                                           44.78%            38.35% - 51.21%
             Met Criteria For Another Item

             Total Medicare Allowances in 2001 for Claims That Did Not Meet
                                                                                                         $95,732,940     $77,333,457 - $114,132,423
             Coverage Criteria for Any Wheelchair or Scooter
             Excessive Medicare Allowances in 2001 for Claims That Did Not
             Meet K0011 Coverage Criteria But May Have Met Criteria for                                  $82,274,760     $68,472,518 - $96,077,002
             Another Item
             Claims That Did Not Meet K0011 Coverage Criteria But Would Have
                                                                                                           23.04%            17.60% - 28.49%
             Qualified For Scooter

             Claims That Did Not Meet K0011 Coverage Criteria But Would Have
                                                                                                            8.26%             4.70% - 11.82%
             Qualified For K0010

             Claims That Did Not Meet K0011 Coverage Criteria But Would Have
                                                                                                            2.61%              0.55% - 4.67%
             Qualfied For Manual Wheelchair

             Claims That Did Not Meet K0011 Coverage Criteria And Reviewer
                                                                                                           10.87%             6.85% - 14.89%
             Could Not Determine If Another Item Would Have Been Appropriate

             Claims That Met K0011 Coverage Criteria                                                       12.61%             8.32% - 16.90%

             Total Medicare Allowances in 2001 for Claims that Met K0011
                                                                                                         $38,288,606     $25,217,076 - $51,360, 135
             Coverage Criteria

             Claims Where Reviewer Could Not Determine Whether K0011
                                                                                                           11.30%             7.21% - 15.40%
             Coverage Criteria Were Met

             Total Medicare Allowances in 2001 for Claims Where Reviewer
                                                                                                         $34,117,123     $21,722,810 - $46,511,437
             Could Not Determine Whether K0011 Coverage Criteria Were Met

             Claims With Documentation That Was Missing, Incomplete, or Dated
                                                                                                           51.94%            46.12% - 57.76%
             After Date of Service

             Claims Without CMNs or Delivery Documentation                                                  5.30%              2.69% - 7.91%

             Total Medicare Allowances in 2001 for Claims Without CMNs
                                                                                                         $19,141,660      $9,692,065 - $28,591,254
             and/or Proof of Delivery

             Claims With CMNs With At Least One Item Missing                                               19.63%            14.89% - 24.37%

             Claims With CMNs Dated After Date of Service                                                  12.69%             8.70% - 16.67%
             Claims With CMNs Dated After Date of Service That Were Dated
                                                                                                           23.53%             9.08% - 37.97%
             More Than a Month After Date of Service
             Claims With Delivery Documentation With At Least One Item Missing                             29.00%            23.57% - 34.42%
             Claims With Delivery Documentation Dated After Date of Service                                 4.83%              2.27% - 7.40%




    O E I - 03 - 02 - 0 0 6 0 0   ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S                                  19

�    A P P E N D I X                                       ~            B 



             Comments from the Centers for Medicare & Medicaid Services




    O E I - 03 - 02 - 0 0 6 0 0   ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   20

A    P      P      E       N      D   I      X     ~      B




    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   21

A    P      P      E       N      D   I      X     ~      B




    O E I - 03 - 02 - 0 0 6 0 0           ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   22

�    A C K N O W L E D G E M E N T S 


                                  This report was prepared under the direction of Robert A. Vito, Regional
                                  Inspector General for Evaluation and Inspections in the Philadelphia
                                  Regional Office, and Linda M. Ragone, Deputy Regional Inspector
                                  General. Other principal Office of Evaluation and Inspections staff who
                                  contributed include:
                                  Lauren McNulty, Team Leader

                                  Jennifer Baraldi, Program Analyst

                                  Cynthia Hansford, Program Assistant

                                  Stephanie London, Program Specialist




    O E I - 03 - 02 - 0 0 6 0 0   ME D I C A R E PA Y M E N T S F O R P O W E R W H E E L C H A I R S   23
